HHS/OIG-Audit--"Assist Audit of HCFA's FY 1998 Financial Statements at Palmetto Government Benefits Administrators
(PGBA), (A-04-99-03013)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Assist Audit of HCFA's Fiscal Year 1998 Financial Statements at Palmetto Government Benefits Administrators (PGBA)," (A-04-99-03013)
April 15, 1999
Complete
Text of Report is available in PDF format (4.25 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Palmetto Government Benefits Administrators (PGBA) serves as both the Medicare fiscal intermediary and carrier for the
State of South Carolina as well as the durable medical equipment regional carrier and regional home health intermediary
for several States. We determined whether Medicare claims paid by PGBA were reimbursed in accordance with Medicare laws
and regulations. With the assistance of PGBA and peer review organization medical review personnel, we identified overpayments
totaling $34,852 and underpayments totaling $1,239 for these claims during the first quarter of Fiscal Year 1998--our audit
period. The overpayments and underpayments occurred for various reasons, including insufficient documentation, incorrect
coding of procedures, and lack of medical necessity. We also identified two durable medical equipment payment errors which
may indicate the need for PGBA to improve its claims processing edits. Officials of PGBA generally concurred with our recommendations
for financial adjustments and procedural improvements.